March 29, 2002

JOHN A. RAPP
SENIOR VICE PRESIDENT, OPERATIONS

THOMAS G. DAY
VICE PRESIDENT, ENGINEERING

SUBJECT: Audit Report – Postal Service Strategy for Processing At-Risk Mail and
         Deployment of Irradiation Equipment (Report Number AC-AR-02-003)

This report presents the results of one in a series of audits we conducted of the Postal
Service’s response to the threat of terrorism (Project Number 01YC001AC000). This
audit was self-initiated and the objective was to evaluate the Postal Service’s strategy
for processing at-risk mail and deployment of irradiation equipment used to sanitize the
mail.

The Postal Service’s strategy for processing contaminated mail and deploying
irradiation equipment was sufficient to protect the mail, customers, and employees.
However, the audit disclosed that three federal government agencies refused to accept
both sanitized and non-sanitized mail. As a result, the Postal Service estimated there
were approximately 16 trailers of mail at the V Street Postal Service facility awaiting
delivery for more than 60 days. The backlog of mail caused storage problems at the
V Street Postal Service facility. In addition, the Postal Service was unable to process
sanitized mail and deploy irradiation equipment at two facilities because they failed to
get advance approval from local government officials. Consequently, the Postal Service
spent approximately $1 million to prepare two facilities that were never used. Postal
Service officials stated that deployment plans for the irradiation systems were on hold
until alternative sites can be located.

We offered two recommendations to Postal Service management designed to eliminate
the backlog of sanitized mail and ensure that approvals are obtained from the
appropriate local government officials prior to acquiring and or modifying facilities for
processing sanitized mail and deploying irradiation equipment. Management agreed
with our findings and recommendations and the actions planned and implemented are
responsive to the issues identified in this report. Management’s comments and our
evaluation of these comments are included in the report.
The Office of Inspector General (OIG) considers recommendations 1 and 2 significant
and, therefore, requires OIG concurrence before closure. Consequently, the OIG
requests written confirmation when corrective actions are completed. These
recommendations should not be closed in the follow-up tracking system until the OIG
provides written confirmation that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Larry Chisley,
director, Accepting and Processing, at (703) 248-2100, or me at (703) 248-2300.



Ronald K. Stith
Assistant Inspector General
 for Core Operations

Attachment

cc: Patrick R. Donahoe
    Richard J. Strasser, Jr.
    Rudolph K. Umscheid
    Susan M. Duchek
Postal Service Strategy for Processing At-Risk Mail and                             AC-AR-02-003
 Deployment of Irradiation Equipment


                                         INTRODUCTION
 Background                     In October 2001, a letter containing anthrax was processed
                                at the Trenton, New Jersey, and the Brentwood Processing
                                and Distribution facilities. In response, the Postal Service
                                developed a strategy that included: (1) the immediate
                                sanitizing of mail at off-site contracted facilities,
                                (2) deploying eight irradiation systems for centralized
                                processing and decontamination of the mail, and
                                (3) identifying detection equipment that could be integrated
                                into existing mail processes. This report does not address
                                the third tier of the Postal Service’s strategy of identifying
                                detection equipment that could be integrated into existing
                                mail processes because it was outside of the scope of our
                                audit.

 Objective, Scope, and          The overall objective of the audit was to assess the Postal
 Methodology                    Service’s strategy for processing at-risk mail and deploying
                                irradiation equipment used to sanitize that mail. To
                                accomplish our objective, we interviewed Postal Service
                                officials in the Capital District and headquarters Engineering
                                and Facilities. We also visited the V Street Postal Service
                                facility to review mail-processing operations in
                                Washington, D.C., and observed decontamination
                                operations at contractor facilities in Lima, Ohio, and
                                Bridgeport, New Jersey. This audit was conducted from
                                November 2001 through March 2002 in accordance with
                                generally accepted government auditing standards and
                                included such tests of internal controls as were considered
                                necessary under the circumstances. We discussed our
                                conclusions and observations with appropriate management
                                officials and included their comments, where appropriate.

 Prior Audit Coverage           We did not identify any prior audits or reviews related to the
                                objective of this audit.




                                                     1
                                          Restricted Information
Postal Service Strategy for Processing At-Risk Mail and                              AC-AR-02-003
 Deployment of Irradiation Equipment


                                         AUDIT RESULTS
 Postal Service                 The Postal Service’s strategy in response to the
 Strategy was                   anthrax-contaminated mail was sufficient to protect the
 Adequate                       safety of the mail, customers, and employees. The Postal
                                Service developed a three-tiered strategy including: (1) the
                                immediate sanitizing of mail at off-site contracted facilities,
                                (2) deploying eight irradiation systems for centralized
                                processing and decontamination of the mail, and
                                (3) identifying detection equipment that could be integrated
                                into existing mail processes.

                                To implement the first tier of the strategy, the Postal Service
                                closed the Trenton, New Jersey, and Brentwood Processing
                                and Distribution Centers. In addition, the Postal Service
                                contracted with two vendors, Titan Corporation and
                                Ion Beam Applications Incorporated, to sanitize all of the
                                contaminated mail from the impacted facilities. However,
                                three federal agencies refused to accept their mail after it
                                was sanitized. This resulted in a backlog of mail and storage
                                problems at the V Street Postal Service facility.

 Mail Delivery and              Three government agencies were not accepting their
 Storage Problems               sanitized mail, which caused delivery and storage problems
                                at the V Street Postal Service facility in Washington, D.C.
                                Postal Service officials stated that mail carriers attempted to
                                deliver the mail, but these agencies still feared
                                contamination, even though the mail had been sanitized.
                                According to the Domestic Mail Manual, if an addressee
                                refuses mail, it should be marked as refused, and returned to
                                the sender without delay. However, Postal Service officials
                                did not follow these procedures or develop supplemental
                                procedures to address the unique circumstances of
                                customers refusing to accept sanitized mail. As of
                                February 2002, the Postal Service estimated 16 trailers of
                                mail for three federal agencies were still being held at the
                                V Street Postal Service facility.

                                Postal Service officials made an extensive effort to inform
                                governmental agencies of the irradiation process used to
                                sanitize the mail. The vice president, Engineering, sent a
                                letter to government customers informing them that the mail
                                had been sanitized and was safe. In addition, the vice
                                president, Engineering, made presentations to federal




                                                     2
                                          Restricted Information
Postal Service Strategy for Processing At-Risk Mail and                                   AC-AR-02-003
 Deployment of Irradiation Equipment



                                agencies’ mailroom managers, mail industry
                                representatives, and the House and Senate administrative
                                staffs. Although the Postal Service made efforts to
                                communicate the processes used to sanitize the mail, there
                                continues to be reluctance on the part of these customers to
                                accept their mail. The following photos are examples of
                                sanitized mail awaiting delivery.




                                Figure 1. Example of mail being held for government agencies




                                                     3
                                          Restricted Information
Postal Service Strategy for Processing At-Risk Mail and                                             AC-AR-02-003
 Deployment of Irradiation Equipment




                                                Figure 2. Example of First-Class Mail being held for the
                                                            Library of Congress

                                      According to the manager of government mail at the
                                      V Street Postal Service facility, the three agencies were
                                      altering their mail acceptance procedures because their
                                      mailrooms could not handle the volume. As of February
                                      2002, the three agencies were not accepting their mail and
                                      no decision had been made on what the Postal Service
                                      plans to do with the backlog of mail. The Postal Service
                                      needs to take some action to elevate the backlog of mail
                                      and storage problems.1

    Recommendation                    We recommend the senior vice president, Operations:

                                      1. Direct the return of backlog sanitized mail to senders in
                                         accordance with the Domestic Mail Manual or develop
                                         supplemental procedures for handling sanitized mail that
                                         customers do not accept.




1
    The backlog of mail has increased to 30 trailers as of February 22, 2002.



                                                            4
                                                 Restricted Information
Postal Service Strategy for Processing At-Risk Mail and                         AC-AR-02-003
 Deployment of Irradiation Equipment




 Management’s                   Management agreed with the recommendation and
 Comments                       stated they notified government agencies that effective
                                March 25, 2002, their mail would be handled as refused, in
                                accordance with the provisions of the Domestic Mail Manual.
                                Management’s comments, in their entirety, are included in
                                the appendix of this report.

 Evaluation of                  Management’s actions are responsive and meet the intent of
 Management’s                   our recommendation.
 Comments




                                                     5
                                          Restricted Information
Postal Service Strategy for Processing At-Risk Mail and                             AC-AR-02-003
 Deployment of Irradiation Equipment




 Processing and                 The Postal Service was unable to implement the second tier
 Deployment Strategy            of strategy for processing sanitized mail and deploying
 Not Implemented                irradiation equipment. Their strategy included acquiring
                                two facilities; one designated to process sanitized mail and
                                the other for operating the irradiation systems used to
                                sanitize contaminated mail. However, use of the facilities
                                was cancelled because of local government officials’
                                resistance to using two facilities, one for processing
                                sanitized mail and another for deploying the irradiation
                                equipment. As a result, the Postal Service incurred about
                                $1 million in building modifications and real estate expenses
                                for two facilities that were never used. Additionally,
                                deployment plans for eight irradiation systems were put on
                                hold until an alternate site could be located.

 Hechinger Building             On November 2, 2001, the Postal Service entered into a
                                3-month license agreement to lease the Hechinger building
                                located in Temple Hills, Maryland. The license agreement
                                allowed the Postal Service to begin using and modifying the
                                building prior to purchase. The Brentwood Processing and
                                Distribution Center’s Government Mail Section was
                                supposed to relocate to this building, where they would
                                receive and process sanitized mail.

                                To prepare the building for occupancy, the Postal Service
                                contracted to have the building remodeled. One week after
                                the start of remodeling, local government officials turned off
                                utilities to the building because of concerns about bringing
                                sanitized mail into their county. As a result, the Postal
                                Service terminated the license and purchase agreements
                                and continued to process sanitized mail at the V Street
                                Postal Service facility in Washington, D.C. The Postal
                                Service incurred approximately $600,000 in architectural
                                and engineering, building modification, and real estate
                                expenses prior to terminating the license agreement.

 White Oak Facility             In October 2001, the Postal Service purchased
                                eight irradiation systems for $40 million from Titan
                                Corporation and planned to install four of the
                                eight irradiation units in the General Services
                                Administration’s White Oak facility in Montgomery County,
                                Maryland.




                                                     6
                                          Restricted Information
Postal Service Strategy for Processing At-Risk Mail and                            AC-AR-02-003
 Deployment of Irradiation Equipment



                                The Postal Service hired an architectural engineering firm to
                                conduct a design concept study of the facility and had
                                planned to have the irradiation equipment installed and
                                operational by April 2002. However, Postal Service officials
                                decided to cancel their plans to use the White Oak facility
                                because they expected local government officials would
                                have concerns similar to those associated with the
                                Hechinger building. As a result, the Postal Service incurred
                                architectural and engineering costs of almost $400,000.
                                Deployment plans for the eight irradiation systems are on
                                hold until an alternate location can be identified.

 Recommendation                 We recommend the vice president, Engineering, in
                                consultation with the vice president, Facilities:

                                2. Establish procedures to ensure approval is obtained
                                   from local government officials prior to acquiring and or
                                   modifying facilities for processing contaminated or
                                   sanitized mail.

 Management’s                   Management agreed with the recommendation and stated
 Comments                       they will ensure that meetings with local government
                                officials occur prior to signing an agreement to acquire or
                                modify a facility for processing contaminated or sanitized
                                mail.

 Evaluation of                  Management’s planned actions are responsive and meet
 Management’s                   the intent of our recommendation.
 Comments




                                                     7
                                          Restricted Information
Postal Service Strategy for Processing At-Risk Mail and            AC-AR-02-003
 Deployment of Irradiation Equipment


                     APPENDIX. MANAGEMENT’S COMMENTS




                                                     8
                                          Restricted Information
Postal Service Strategy for Processing At-Risk Mail and            AC-AR-02-003
 Deployment of Irradiation Equipment




                                                     9
                                          Restricted Information
